T        estimony

                     STATEMENT OF
                   DONALD MANCUSO
               ACTING INSPECTOR GENERAL,
                DEPARTMENT OF DEFENSE
                       BEFORE THE
      SUBCOMMITTEE ON GOVERNMENT MANAGEMENT
             INFORMATION AND TECHNOLOGY
        HOUSE GOVERNMENT REFORM COMMITTEE,
        UNITED STATES HOUSE OF REPRESENTATIVES
                           ON
            DEFENSE FINANCIAL MANAGEMENT



Report Number 99-149       DELIVERED: May 4, 1999



             Office of the Inspector General
                 Department of Defense
Mr. Chairman and Members of the Subcommittee:



I appreciate the opportunity to be here today to discuss the

significant challenges facing the Department of Defense (DoD) in

the financial management area and the progress made since your

last hearing on these matters, just over a year ago.



I would like to begin by underscoring both the critical

importance of sound financial management and the unavoidable

complexity of finance and accounting operations in an

organization as large as the DoD.   It is useful to keep in mind

that the Department is the largest holder of U.S. Government

physical assets ($1.3 trillion), has the most employees (2.2

million), owns the most automated systems (28,000), administers

the most complicated chart of accounts, and manages the most

diverse mix of operating and business functions of any

Government agency.



The average monthly finance and accounting workload includes

making 9 million personnel payments; processing 2 million

commercial invoices; paying 675,000 travel settlements; issuing

550,000 savings bonds; handling 340,000 transportation bills of

lading; disbursing $22.2 billion; and reporting commitments,
                                                                     2


obligations, expenditures and other data for many thousands of

accounts.



A Decade of Change



The end of the Cold War and the downsizing of the Defense budget

in the early 1990’s caused many profound changes in the DoD.

For example, it was evident that administrative processes of all

kinds, including finance and accounting, in their current forms

were neither affordable nor capable of keeping pace with rapidly

changing management practices and information technology.

Likewise, the individual DoD components had been allowed to

develop several hundred finance and accounting automated

systems, whose interoperability among themselves and with non-

financial systems was generally poor.   To begin turning this

situation around, the decision was made to centralize those

operations and systems in the Defense Finance and Accounting

Service (DFAS), which was activated in January 1991.    Along with

all other DoD functional communities, the financial management

activities began a long term effort to reengineer their own

processes, participate in the reinvention of other DoD

processes, and develop a new generation of modern and

interoperable information systems.
                                                                  3


In my office’s estimation, achieving full integration of DoD

support operations, including financial management, is far from

complete, will require sustained and probably even intensified

commitment by both the Congress and the Department, and will

certainly take several more years.



During the 1990’s, a combination of factors highlighted many

longstanding DoD financial management problems and created new

challenges.   Those factors included:



     •    the Chief Financial Officers (CFO) Act of 1990 and

          related subsequent legislation that introduced

          commercial type financial reporting requirements, for

          which DoD was entirely unprepared;



     •    the dramatic expansion of financial statement

          auditing, which was mandated by the CFO Act and drove

          DoD financial audit coverage from one or two dozen

          workyears in 1989 to over 600 in 1998; and



     •    the consolidation of many inefficient and outmoded

          finance and accounting practices into one customer

          funded organization, DFAS, where those inefficiencies
                                                                    4


           were far more visible and customer dissatisfaction was

           more focused.



Financial Reporting



The DoD has not been able to comply with the requirements for

audited financial statements levied by the Chief Financial

Officers (CFO) Act of 1990, the Government Management Reform Act

of 1994 and the Federal Financial Management Improvement Act of

1996.   Its accounting systems were designed mostly for funds

control, not financial statement reporting.    Those systems lack

integrated, double-entry, transaction-driven general ledgers.

They cannot produce an audit trail from the occurrence of a

transaction, through recognition in accounting records, until

incorporation into financial statement data.   There are numerous

internal control problems in the accounting systems and the non-

financial “feeder” systems, which are operated by the

acquisition, logistics and other program management communities

and provide 80 percent of the financial statement data.   These

and other fundamental problems have been repeatedly and candidly

acknowledged in DoD management representation letters, annual

Secretary of Defense management control assessments and

congressional hearings, including those held by this

subcommittee.
                                                                    5




The financial reporting challenges also include:   the steady

stream of expanded statutory requirements, new and still

evolving Federal Accounting Standards Advisory Board (FASAB)

principles, the Administration’s goal of unqualified audit

opinions on the Government-wide Consolidated Statements for

Fiscal Year 1999, and increasingly detailed Office of Management

and Budget (OMB) guidance.   Each of these has generated very

significant new workload requirements for the managers who are

trying to make systems “CFO compliant,” for the preparers of

financial statements, and for the auditors.   Because of FASAB

and OMB guidance, the number of statements for each reporting

entity jumped from 3 for FY 1997 to as many as 8 for FY 1998.

The DoD prepared and we audited financial statements for 11

reporting entities in FY 1998; no other Federal agency had more

than four reporting entities, and many had just one.   Currently,

we are working with the Under Secretary of Defense (Comptroller)

to reconsider the number of separate DoD reporting entities, so

that the statement preparation and audit workload can be kept

within reasonable bounds.



The results of the audits of the DoD financial statements for

FY 1998, when viewed solely in terms of audit opinions, were

identical to the previous poor results.   My office and the
                                                                     6


Auditors General of the Army, Navy and Air Force issued opinion

reports earlier this year.    Only the Military Retirement Trust

Fund received an unqualified “clean” audit opinion.    Disclaimers

of opinion were necessary for the consolidated DoD statements,

as well as all other major fund statements.



The DoD continues to lack systems capable of compiling financial

reports that comply with Federal accounting standards and laws,

nor will those systems be in place for several more years.

Likewise, the labor intensive workarounds currently being used

to formulate the annual statements are fundamentally

ineffective, but will not be replaced until more efficient

automated approaches are feasible.    This year, partially because

of the significantly increased workload and complexity related

to the new financial statement preparation requirements, DoD

final statements were more untimely than ever.    In addition, a

record $1.7 trillion of unsupported adjustments were made in

preparing the statements.    In addition to 11 opinion reports,

the DoD audit community detailed the Department’s progress and

continuing deficiencies in 178 other financial audit reports

issued between April 1, 1998 and March 31, 1999.    Examples are

summarized in the attachment to this statement.
                                                                   7


Much effort is being expended to compensate for inadequate

systems and to achieve improvement.   It is fairly likely that

one or more of the major fund entities below the DoD level will

achieve clean or qualified opinions during the next one to three

years, and various smaller entities are quite likely to do so as

well.   Although such indicators of progress may be good for

morale, favorable opinions on fragments of the Department’s

financial reports have very limited actual importance if the

consolidated statements remain fundamentally flawed.    The

prospects for favorable audit opinions on the consolidated DoD

financial statements in the near term are not good.



Measuring Progress



We believe that focusing on audit opinions as the primary

indicator of financial management improvement may well

incentivize some Federal managers merely to want to shop around

for favorable audit opinions on annual statements, instead of

focusing on the usefulness of all financial reports and the

adequacy of management controls.   An agency could conceivably

develop workaround procedures, actually bypassing its official

accounting systems, that would function well enough to achieve a

favorable audit opinion on its consolidated financial

statements.   Unfortunately, failure to fix those accounting
                                                                     8


systems and related control weaknesses would leave program

managers still unable to rely on the various financial reports

that they need to conduct day to day business.    We would

consider the achievement of favorable audit opinions on annual

financial statements, under those circumstances, to be a

Pyrrhic victory.



Several other sources of insight into the Department’s progress

should be considered in addition to audit opinions.    First, the

previously mentioned extensive audit reporting provides

considerable information.   These reports are far from being

carbon copies of each other.    Because their sheer number can

appear overwhelming, we will continue our past practice of

issuing annual summary reports that highlight major deficiencies

preventing favorable audit opinions on DoD financial statements.

We are currently compiling the summary report addressing the

statements for FY 1998 and will issue it this summer.



Second, numerous action plan milestones have been created in the

effort begun by the Office of Management and Budget, General

Accounting Office, DoD Chief Financial Officer and my staff in

mid-1998 to develop sound action plans for implementing the new

Federal accounting standards.    Although not all issues on how to

interpret and implement the standards have been resolved, the
                                                                    9


degree of consensus is much broader now than ever before.

Progress toward meeting the agreed-upon implementation

milestones can be tracked and we intend to do so closely.



Third, progress toward making financial and non-financial feeder

systems compliant with applicable laws, regulations and new

accounting standards is an excellent indicator of how well the

system deficiencies that are the root cause of inaccurate

financial reporting are being addressed.   The Federal Financial

Management Improvement Act of 1996 and the National Defense

Authorization Act for FY 1998 focused on system improvement.

The latter Act added a new section to Title 10 that required

detailed reporting on system status in a DoD Biennial Financial

Management Improvement Plan.



Biennial Plan



My office published an extensive evaluation of the September

1998 version of the DoD Biennial Financial Management

Improvement Plan on April 2, 1999.   We concluded that DoD

had made a valid first attempt to compile the extensive data

required by law.   We strongly support the DoD concept of folding

all data required on financial management system status by the

Federal Managers Financial Integrity Act of 1982, the Chief
                                                                   10


Financial Officers Act of 1990, the Federal Financial Management

Improvement Act of 1996, and the National Defense Authorization

Act of 1998 into one publication, the Biennial Plan.   We

understand that the Department intends to update the Biennial

Plan annually, which will facilitate that consolidation.



Our report also indicated numerous areas where the first version

of the Biennial Plan could be improved, both to comply with the

variety of statutory requirements it is intended to address and

to become a good tool for managing the financial management

systems development effort in an intensive and fully integrated

way.   In addition to ensuring that the next version includes

vital data like interim milestone dates for systems being

developed or modified to attain compliance, for example, we

recommended taking a major step toward establishing management

control over the whole process by requiring written agreements

between DFAS and owners of non-financial feeder systems.



Another major step would be to develop more effective management

oversight mechanisms.   It is useful to compare the well focused

reporting now being provided to senior managers and Congress on

the Y2K compliance status of several thousand DoD systems with

the rather unfocused information available on the CFO compliance

status of about 200 of the same systems.   As you know, the DoD
                                                                    11


struggled at first with the Year 2000 conversion because

definitions of terms like “compliant” and “certified” were

unclear, there was insufficient management control of the

overall program and many functional managers and commanders

initially remained uninvolved.   So far, the same kinds of

problems have hampered the financial management system

improvement effort.   We are pleased, therefore, that the Under

Secretary of Defense (Comptroller) data call for the next

Biennial Plan implemented most of our recommendations.    We look

forward to helping the Department learn from the Y2K experience

and establish a systems management approach that will allow

senior managers and Congress to know exactly how well each DoD

management sector is supporting the DoD system improvement

goals.



Once a viable status reporting process is established, updates

should be provided as a management tool for the Defense

Management Council, other oversight groups, DoD Chief Financial

Officer, DoD Chief Information Officer, and senior managers who

“own” feeder systems.   This information should be reviewed much

more frequently than annually.   We suggest, in other words, that

the Biennial Plan be used as a catalyst for more visible,

accountable and effective management of the financial management

systems improvement effort.   Just as Y2K conversion is not a
                                                                   12


problem that information technologists can solve alone, so too

is “CFO compliance” not a goal that DoD accountants can achieve

without a strong commitment from the rest of the Department.



Systems Security



Turning to other challenges confronting the DoD financial

community, I would like to emphasize my concern about

information assurance.   As the recent hacker attack against the

NATO website and the so-called Melissa Virus incident

demonstrated, any automated system may be attacked or misused.

Motives can include vandalism, sabotage, thrill seeking,

propaganda, pranks, invasion of privacy and fraud.   DoD

financial systems that process tens of millions of disbursements

worth nearly $300 billion annually are clearly at risk for

individuals with any of those motives.



My office has been working closely with the Defense Information

Systems Agency and the DFAS over the past several years to

address this problem.    Fortunately, one byproduct of DoD efforts

to reduce the number of separate financial management systems

will be somewhat reduced exposure from a security standpoint.

To minimize risk, however, it is imperative that security

awareness be stressed, adequate training be provided, periodic
                                                                   13


security audits be performed for every system and processing

center, and prudent measures be taken to detect, react to and

learn from unauthorized intrusions.



We have issued 20 audit reports during the 1990’s on security

matters related to DFAS systems and about 185 of our 220

recommendations to address weaknesses have been implemented.

Most of the others were made just recently and actions are

either planned or still ongoing.    As demonstrated by those

numbers, the Department has been quite responsive to audit

advice.



The Defense Criminal Investigative Service, the investigative

arm of my office, recently established an Information

Infrastructure Team.   This new unit works in partnership with

other law enforcement organizations and DISA to react

immediately to system penetration incidents.    Additionally, we

have a special agent assigned full time to the FBI National

Infrastructure Protection Center.



Year 2000 Conversion



During FYs 1998 and 1999, supporting the DoD efforts to avoid

mission disruptions because of the so-called Millenium Bug has
                                                                    14


been my office’s top discretionary audit priority.   As part of

the coverage provided in all DoD functional areas, we have been

auditing the DFAS   “Y2K” conversion program continuously since

mid-1997.   DFAS has been responsive to audit advice and has made

progress in ensuring that its 41 mission-critical systems will

be able to function; however, much remains to be done.   Thirteen

of those systems missed the OMB compliance goal of March 31,

1999 and DFAS still faces formidable challenges in terms of

ensuring robust end to end testing of its systems, coping with

the varying degrees of Y2K readiness of non-financial systems

that are linked to DFAS systems, coordinating with the Defense

computing centers to assure Y2K compliance of the mainframe

computer platforms on which DFAS depends, and formulating

realistic contingency plans.



At the present time, absent any end to end test results, it is

somewhat premature to make forecasts about Y2K outcomes.    I can

report to you, however, that DFAS has taken the Y2K challenge

very seriously and has been one of the more innovative and

aggressive DoD organizations in terms of contingency planning

and coordination with public and private sector data exchange

partners.   The Deputy Secretary of Defense has made it very

clear that DoD intends to meet January 2000 payrolls.    Recently,

OMB directed special emphasis on military retirement pay
                                                                  15


processes to demonstrate Y2K readiness.   It is also important,

of course, to avoid disruptions in payments to suppliers and to

financial reporting, including the DoD financial statements for

FY 1999.



Vulnerability to Fraud



Numerous factors have contributed to the vulnerability to fraud

of DoD finance operations.   Those factors have included a weak

internal control environment, staff turbulence and lack of

sufficient fraud awareness training for finance personnel.

Congressional hearings in September 1998 before the Senate

Committee on the Judiciary graphically identified control

weaknesses and the damage done by a few unscrupulous individuals

who exploited those weaknesses.



The DCIS has primary investigative jurisdiction concerning

allegations of fraud that directly impact the DFAS, including

fraudulent conduct by contractors and government employees.   The

Military Criminal Investigative Organizations have primary

investigative jurisdiction concerning allegations of fraud

pertaining to DFAS services provided at individual military

installations, as well as pay, allowance and travel fraud

committed by a civilian employee or Service member of a Military
                                                                  16


Department.   DCIS currently has 84 open investigations involving

DFAS, 21 of which are theft or embezzlement cases.   DCIS efforts

over the past 5 years have resulted in 73 convictions and

recovery of $4.9 million from cases related to DFAS operations.

Examples of recently closed cases are in the attachment to this

statement.



We have been working with DFAS to improve the capability to

detect fraud in DoD finance operations.   Since 1994, OIG, DoD,

auditors and investigators have supported Operation Mongoose, a

Deputy Secretary of Defense initiative involving the use of

computer matching techniques to detect fraud.   Problems with

data base accuracy have been an inhibiting factor; however, the

project has been a useful laboratory for determining the

viability of various matches as internal controls and fraud

detection tools.



More recently, DCIS has conducted over 60 fraud awareness

briefings for DFAS personnel, reaching audiences of about 6,500

employees and including participation in a DFAS stand down day

for such training last year.   We are working with DFAS on new

training initiatives specifically addressing vulnerability in

the vendor pay area and on improving fraud referral procedures.
                                                                   17


DFAS Management Controls



The key to preventing fraud, waste and mismanagement in DoD

finance operations is improving management controls.    Although

the DFAS candidly reports more material management control

weaknesses in its annual assurance statements than any other DoD

component, those disclosures are driven by external audit

findings, not internal self-assessment.   The enormous workload

involved in mandatory financial statement audits has shifted my

office’s audit coverage almost entirely away from the finance

side of DFAS-—where payments are made-—to the accounting side.

If our coverage priorities were driven solely by risk

assessment, we would earmark about 50 auditor workyears annually

for intensive review of internal controls in DFAS personnel and

contractor pay operations for three to four years,

systematically covering all centers and operating locations.



The initial organizational plan for DFAS included provision for

a strong Office of Internal Review.   Pressures to reduce

personnel strength and overhead costs, as well as lack of

sustained management emphasis, have prevented the DFAS Office

of Internal Review from becoming a meaningful factor in the DFAS

management control structure.   Lacking sufficient coverage of

its most high risk operations from either external or internal
                                                                   18


auditors, DFAS will remain vulnerable to fraud and other

problems in those operations, despite the recent commendable

initiatives on fraud awareness.



Problem Disbursements



To maintain proper fiscal control and have reliable information

on amounts available for obligation and expenditure, DoD needs

to be able to match disbursements reported to the U.S. Treasury

with obligations shown in DoD accounting records.

Unfortunately, the disbursing and accounting functions are

performed by separate activities, which are not linked in fully

integrated systems and often are not collocated.    Disbursement

data therefore must “transit” to the accounting stations.

Excessive delays and errors can occur in recording the

disbursements in the accounting systems.   DFAS uses the term

“aged intransit disbursements” to denote excessive delays.    If

attempts to match disbursement and obligation data fail, the

term “problem disbursements” is used.



The DoD has been working to reduce aged intransit and problem

disbursements for several years.   DFAS reported a decrease in

aged intransit disbursements from $22.9 billion in June 1997 to

$9.6 billion in June 1998.   DFAS also reported a reduction in
                                                                    19


problem disbursements from $34.3 billion in June 1993 to

$11.1 billion in June 1998.   Despite those significant

decreases, unmatched disbursements will remain a DoD financial

management challenge until fully integrated systems are fielded

and the backlog of unmatched disbursements is eventually

eliminated.   Until then, the Department must make the best of a

bad situation and try to minimize its exposure to Antideficiency

Act violations and undetected improper payments.



We recently completed an audit of the reporting for aged

intransit disbursements and problem disbursements between June

1996 and June 1998.   The audit indicated that, while there

continued to be overall progress, some DoD components were

actually losing ground and the unmatched disbursements in

their accounts were increasing.   Efforts to match pending

disbursements to corresponding obligations before making

payments, commonly referred to as “prevalidating disbursements,”

have been only partially implemented because significant payment

delays were encountered when trying to prevalidate all

disbursements over $2,500 at DFAS Columbus Center.   In addition,

DFAS needs to improve the accuracy of its reports to senior

managers and the Comptroller needs to decide whether to enforce

his policy that currently available funds must be obligated to

cover certain aged intransit and problem disbursements.    Not to
                                                                  20


do so increases the risk of Antideficiency Act violations, which

carry potential criminal penalties.   Obligating funds to cover

these accounting problems, on the other hand, ties up 2 to 3

billion dollars that are urgently needed for other purposes and

therefore some Services and Defense agencies are resistant to

the policy.   This seemingly arcane accounting issue has very

real program impact.



Other Contractor Pay Issues



During the past year, the Department has stepped up efforts to

assure appropriation integrity when making progress payments to

contractors; encourage managers not to add to the accounting

burden by creating unnecessary extra accounts; and introduce

mass use of credit cards for purchasing goods and services.

These significant initiatives are still new and there has been

little feedback on how they are progressing.   We have not had

sufficient audit resources available recently to provide an

independent evaluation.   We continue to support all four

concepts, however, and hope to provide at least some audit

coverage later in FY 1999 or 2000.
                                                                   21


Summary



The DoD financial management community faces major challenges

and needs the active support of senior Departmental managers

and the Congress to meet them.   The DoD audit and investigative

communities understand the importance of achieving the

Department’s goals in this area and the difficulties involved.

We will continue putting heavy emphasis on DoD finance and

accounting operations, while keeping all stakeholders—-the

Department, Congress, OMB and the public-—informed of our

audit and investigative results.   Thank you.
                   Selected Audit Reports and
                     Criminal Case summaries


Inspector General, DoD, Audits

Report No. 99-135, Trends and Progress in Reducing Problem
Disbursements and In-Transit Disbursements, April 16, 1999.
Between June 30, 1996 and June 30, 1998, DFAS reported
that problem disbursements decreased by $1.9 billion to
$11.1 billion. Aged in-transit disbursements decreased by
$13.3 billion, from $22.9 billion to $9.6 billion between
June 30, 1997 and June 30 1998. The Navy, the Air Force,
and the Marine Corps reported progress in reducing delays in
properly matching disbursements to corresponding obligations.
However, no progress was made in reducing aged in-transit
disbursements and problem disbursements for the Army and some
Defense agencies. For those entries, aged in-transit
disbursements increased $0.6 billion between June 1997 and
June 1998. Because DoD continued to have at least $20.7 billion
in disbursements that were not properly recorded in accounting
records, financial statements showing the status of budgetary
resources were unauditable and may have been materially
misstated. Risk of over disbursement and Antideficiency Act
violations remained unacceptably high. In addition, there
were problems with the accuracy and consistency of data being
reported to management.

Report No. 99-128, Computing Security for the Defense Civilian
Pay System, April 8, 1999. Because of their sensitive nature,
the deficiencies discussed in this report were presented in
general terms. The Defense Finance and Accounting Service and
Defense Information Systems Agency needed to improve security
for the Defense Civilian Pay System and the mainframe computer
platforms on which it runs. This was the second in a series of
two reports on this subject.

Report No. 99-123, Assessment of the DoD Biennial Financial
Management Improvement Plan, April 2, 1999. In the September
1998 Biennial Plan, DoD made a valid attempt to compile and
report all the necessary data on financial management systems.
The Biennial Plan could be improved if it better identified the
deficiencies for each financial management system and disclosed
the remedies, resources, and intermediate target dates necessary
to bring DoD financial management systems into substantial
compliance. The Biennial Plan should also identify an overall
milestone date for all financial management systems to achieve
full compliance, and should better address the Special Interest
Items directly related to financial management systems, as
required by the National Defense Authorization Act for FY 1998.
The Biennial Plan should also be purged of unsupported opinions
that have nothing to do with planned actions to overcome
impediments to financial management improvement.
                                                                   2


The role of the DoD components other than the Office of the
Under Secretary of Defense (Comptroller) in formulating the
Biennial Plan was limited, underscoring the need for more
emphasis on a fully integrated management approach. The
Biennial Plan could be developed into an excellent management
tool for controlling and reporting on the status of the
financial management systems improvement effort, but all major
DoD components need to take an active role in formulating and
executing the Biennial Plan.

Report No. 99-097, Internal Controls and Compliance with Laws
and Regulations for the DoD Agency-wide Financial Statements for
FY 1998, March 1, 1999. Internal controls were not adequate to
ensure that resources were properly managed and accounted for,
that DoD complied with applicable laws and regulation, and that
financial statements were free of material misstatements. The
internal controls did not ensure that adjustments to financial
data were fully supported and that assets and liabilities were
properly accounted for and valued. The material weaknesses and
reportable conditions we identified were also reported in the
management representation letter for the DoD Agency-wide
Financial Statements for FY 1998, the DoD Annual Statement of
Assurance for FY 1998, and the DoD Biennial Financial Management
Improvement Plan.

Report No. 99-013, Summary Report on Financial Reporting of
Government Property in the Custody of Contractors, October 15,
1998. This report summaries the weaknesses identified by a
DoD-wide audit performed by the Inspector General, DoD; Army
Audit Agency, Naval Audit Service; and Air Force Audit Agency
on the financial reporting of Government property in the custody
of contractors. The reported amount of Government property in
the custody of contractors has remained about $90 billion
(acquisition value) over the last 3 fiscal years. Since our
review of the Contract Property Management System and the
FY 1996 DoD financial statements, financial managers in each
Military Department have adjusted the way data from the Contract
Property Management System are used for financial reporting.
However, the system and the way the data are entered into
financial statements have not changed. The DoD financial
statements for FYs 1996 and 1997 did not accurately report
Government property in the custody of contractors. Although
the Contract Property Management System does report Government
property, financial statement requirements are not met because
the system: does not apply capitalization thresholds; does not
compute depreciation; does not distinguish between assets of the
General Fund and the Working Capital Fund; and does not provide
data in time to meet financial statement reporting milestones.
The amount of Government property in the custody of contractors
remains material to the DoD financial statements, and the
National Defense line on the Government-wide financial
statements is material to the Consolidated Financial Statements
of the United States. The inability of DoD to resolve the
reporting of Government property in the custody of contractors
                                                                   3


will impede the ability of the DoD and the Federal Government to
obtain a favorable opinion on future financial statements.

Report No. 99-028, Major Deficiencies Preventing Favorable Audit
Opinions on the FY 1997 DoD Financial Statements, October 30,
1998. Auditors identified and DoD financial managers
acknowledged major deficiencies that prevented favorable audit
opinions on most FY 1997 DoD Financial Statements. The
overarching deficiency continued to be the lack of adequate
accounting systems for compiling accurate and reliable financial
data. Specifically, auditors were unable to render favorable
audit opinions on the FY 1997 DoD Consolidated Financial
Statements and supporting financial statements prepared for
nearly all reporting entities. The reasons were deficient
accounting systems, insufficient audit trails, delays in
providing auditors with final versions of the financial
statements and management and legal representation letters, lack
of effective internal management controls, and the consequent
scope limitations that prevented auditors from auditing material
lines on the DoD financial statements. Except for the
unqualified audit opinions rendered on the DoD Military
Retirement Trust Fund Financial Statements, which accounted for
10.8 percent of DoD Consolidated assets and 4.4 percent of DoD
Consolidated revenues in FY 1997, auditors have been disclaiming
opinions on major DoD financial statements since FY 1988.

In response DoD financial managers have acknowledged significant
problems with financial data and have been attempting to correct
the problems. This report identifies numerous corrective
actions taken and ongoing initiatives. Although DoD continues
to evaluate its options for achieving adequate and compliant
DoD accounting systems, progress in correcting deficiencies in
accounting systems has been slow and has had mixed results. For
example, DoD completed deployment of a new accounting system,
the Corps of Engineers Financial Management System, throughout
the U.S. Army Corps of Engineers. However, the Defense Property
Accountability System, which was proposed as the answer to
unreliable reporting of DoD real and personal property, has
fallen short of expectations. Until DoD deploys accounting
systems that comply with the Federal Financial Management
Improvement Act of 1996, auditors will not be able to perform
sufficient tests on material financial statement line items to
warrant favorable audit opinions on the DoD financial
statements.


Defense Criminal Investigative Services Cases

Air Force Staff Sergeant Robert L. Miller, Jr., was convicted
and sentenced by a general courts-martial to 12 years in prison,
a dishonorable discharge, reduction in rank to E-1 and
forfeiture of all pay and allowances. This was a result of
Miller’s theft of 17 U.S. Treasury Checks totaling $436,684 and
attempted theft of 2 checks totaling $501,851, from the DFAS,
                                                                   4


Dayton, Ohio, where he was assigned. Miller caused bogus U.S.
Treasury checks to be issued to Payling Scott, of Atwater,
California, a co-conspirator, who cashed the checks, kept a
portion of the funds for herself and sent the remainder to
Miller. Scott pled guilty to conspiracy and was sentenced to
3 years probation and ordered to make restitution for her
portion of the stolen funds. This investigation was worked
jointly by DCIS and AFOSI.

Teasa Hutchins, Jr., Fort Myer, Virginia, pled guilty to theft
of Government funds and was sentenced to 21 months incarceration
and ordered to pay $168,772 restitution. Hutchins, a former pay
supervisor in the Finance and Accounting Office, Military
District of Washington, embezzled approximately $169,000 by
establishing an account in the name of a fictitious military
member. Hutchins used the ghost account to effect electronic
funds transfers to bank accounts owned or controlled by Hutchins
and a civilian acquaintance. This investigation was worked
jointly by DCIS and the Army Criminal Investigation Command.

Argent Research & Recovery, Limited (Argent), Weymouth,
Massachusetts, was sentenced to 12 months probation. Mathew M.
Drohan, executive vice president, was sentenced to 48 months
incarceration. Argent and Drohan were jointly ordered to make
restitution in the amount of $2,127,481. Raymond J. Keegan,
Plymouth, Massachusetts, former president and co-owner of
Argent, pled guilty to two counts of Federal income tax evasion
and was sentenced to 11 months incarceration, 24 months
probation and ordered to pay a $3,100 fine. Argent had been
engaged in the business of identifying Federal, state and local
government funds that had not been received by the payees, and
collected the funds for a percentage of the proceeds. Both
Argent and Drohan were embezzling funds collected from DFAS on
behalf of payees. Keegan failed to report income derived from
criminal activity

Investigation disclosed that checks stolen from DFAS, Columbus,
Ohio, by a former employee were deposited into fraudulent
business accounts at several banks. Funds were then withdrawn
by co-conspirators using false identification. To date, nine
subjects have been convicted and sentenced to incarceration
totaling over 103 months, with monetary recoveries of $246,000.
The longest sentence was meted out to Richard E. Watkins,
Columbus, Ohio, who pled guilty to conspiracy to commit bank
fraud and was sentenced to 37 months incarceration and ordered
to pay $10,000 restitution.

Sonya R. Fernandez, Santa Ana, California, pled guilty to theft,
embezzlement and submitting false statements and was sentenced
to 24 months confinement and ordered to pay $269,488
restitution. Investigation disclosed that Fernandez failed to
notify the Government for 10 years of the 1987 death of her
adoptive father and continued to receive Federal retirement
                                                                  5


benefits destined for him. DFAS paid over $97,000 of retirement
benefits that Fernandez illegally converted to her own use.

Mark J. Krenik, an Air Force Contracting Officer’s Technical
Representative, at Reese Air Force Base, Texas, created false
invoices for automated data processing equipment. Due to
downsizing of his office, he became responsible for generating
the requirements, placing the orders, certifying delivery, and
authorizing payments. He opened two accounts at a local bank
under a fictitious business name and placed himself as sole
signature authority on the accounts. Eleven Government checks
totaling $505,941 were deposited to the accounts. The bank
notified Federal authorities. Krenik was found guilty of three
counts of filing false claims, received three years probation,
was fined and ordered to pay restitution. The entire $505,941
deposited to the accounts was recovered. Krenik was able to
accomplish his crime because of little or no oversight on the
contracts in which he was involved. Consolidation of
responsibilities of three staff positions and violating the
internal control principle of separation of duties allowed the
opportunity for Krenik to develop the scheme to defraud the
Government.
